LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 26, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

SEANTREY MORRIS V. JOSEPH MEKDESSIE, BRANDON LEBLANC; DANIEL
SWEARS; ARTHUR S. LAWSON, IN HIS OFFICIAL CAPACITY AS CHIEF OF POLICE,
CITY OF GRETNA POLICE DEPARTMENT; GRETNA CITY

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioner, on August 26, 2019, I caused service to be made pursuant
to Rule 29 on the following counsel for the Respondents:
RESPONDENTS JOSEPH
MEKDESSIE, BRANDON LEBLANC,
ARTHUR LAWSON AND THE CITY
OF GRETNA:
Leonard L. Levenson
Christian Wayne Helmke
Leonard L. Levenson & Associates
424 Gravier Street, First Floor
New Orleans, LA 70130
(504) 586-0066
lenlawyer@aol.com
cwhelmke@gmail.com

RESPONDENT DANIEL SWEARS:
James Bryan Mullaly
Mullaly & Associates
630 St. Charles Avenue
New Orleans, LA 70130
(504) 259-5242
mulljtc@gmail.com

This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

